HHS/OIG, Audit -"Review of Compensation Practices for Executives and Teachers, Council for Economic Opportunities
in Greater Cleveland," (A-05-04-00023)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Compensation Practices for Executives and Teachers, Council for Economic Opportunities in Greater Cleveland,"  (A-05-04-00023)
January 24, 2005
Complete
Text of Report is available in PDF format (188 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Council for Economic Opportunities in Greater Cleveland’s
(CEOGC) compensation practices for key executives and teachers were reasonable and consistent with Federal requirements
and guidelines.  CEOGC’s compensation practices for top executives did not meet Federal requirements and guidelines.  While
wages paid to teachers were comparable to teachers’ wages in surrounding areas, compensation for CEOGC’s key
executives appeared unreasonable compared to the top-level executive compensation at other Head Start programs.  The
total compensation to CEOGC’s Executive Director, Chief Financial Officer, and Head Start Director exceeded the compensation
for the same positions of a comparable agency by around $86,000, $70,000, and $22,000, respectively.  We recommended
that CEOGC ensure that executive compensation is reasonable and that future wage comparability studies meet the requirements
of §653 of the Head Start Act and any future clarification, guidance, or requirements set out by ACF.  CEOGC officials
agreed with our audit recommendations.  However, they expressed concerns as to our comparisons of CEOGC executive
compensation to other Head Start agencies.